   AUDIT OF OFFICE OF JUSTICE PROGRAMS

EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

     GRANTS AWARDED TO THE CITY OF 

          BIRMINGHAM, ALABAMA




         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 



        Audit Report GR-40-11-004 

                 June 2011    

  AUDIT OF OFFICE OF JUSTICE PROGRAMS, EDWARD 

   BYRNE MEMORIAL JUSTICE ASSISTANCE GRANTS

  AWARDED TO THE CITY OF BIRMINGHAM, ALABAMA 



                        EXECUTIVE SUMMARY


      The Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of Edward Byrne Memorial
Justice Assistance Grants (Byrne JAG), including a 2009 Recovery Act
grant, awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance, to the City of Birmingham, Alabama.

      The purpose of the Byrne JAG program is to allow local
governments to support a broad range of activities to prevent and
control crime based on their local needs and conditions. Grant funds
may be used for law enforcement; prosecution and courts; crime
prevention and education; corrections; drug treatment; planning,
evaluating, and implementing technology improvement programs; and
crime victim and witness programs. As shown in Exhibit I, the
City of Birmingham was awarded $5,017,687 under the Byrne JAG
program since 2006.

     Exhibit I: Edward Byrne Memorial Justice Assistance
          Grants Awarded to the City of Birmingham
  Grant Number     Start Date  End Date     Award Amount
 2006-DJ-BX-0576 10/01/2005 09/30/2009          $323,415
 2007-DJ-BX-0670 10/01/2006 09/30/2010           529,405
 2008-DJ-BX-0397 10/01/2007 09/30/2011           174,927
 2009-DJ-BX-1029 10/01/2008 09/30/2012           731,334
 2009-SB-B9-1213 03/01/2009 02/28/2013         3,258,606
                   Total                     $5,017,687
Source: Office of Justice Programs

Recovery Act

       In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the
economy and investment in long term growth, and foster
accountability and transparency in government spending. The
Recovery Act provided $787 billion for tax cuts, education, health care,
entitlement programs, contracts, grants, and loans. Recipients of
Recovery Act funds are required to report quarterly to

                                     i
FederalReporting.gov on how they spend their Recovery Act funds and
the number of jobs created or saved. The DOJ received $4 billion in
Recovery Act funds and made $2 billion of that funding available
through the Byrne JAG Program.

Audit Results

      The purpose of the audit was to determine whether the
City of Birmingham: (1) used grant funds for costs that were
allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grants;
(2) met or was meeting the goals outlined in the grant programs and
applications; and (3) submitted timely and accurate spending and job
data to FederalReporting.gov.

      We tested whether the city complied with essential grant
conditions pertaining to: (1) internal controls, (2) grant drawdowns,
(3) supplanting, (4) grant expenditures, (5) matching costs,
(6) property management, (7) program income, (8) financial and
progress reports, (9) Recovery Act reporting, (10) program
performance and accomplishments, and (11) monitoring of sub-
recipients. We determined that matching costs and program income
were not applicable to the grants we tested.

     We found that the City of Birmingham:

  	 charged $2,513 in unallowable costs to grant funds;

  	 spent $55,825 in grant funds on property items that the police
     department plans to keep in storage until needed;

  	 did not maintain property records on all accountable property
     items bought with DOJ funds and the available records did not
     indicate the source of the funds used to acquire the items;

  	 did not provide sufficient details on the progress of each grant in
     the reports it submitted to OJP;

  	 did not meet or could not show that it met grant goals and 

     objectives; 


  	 did not monitor and had no procedures for monitoring sub-
     recipients to ensure they met or will meet the programmatic
     requirements of the grants;

                                   ii
  	 did not spend $56,376 in grant funds from the FYs 2006 and
     2007 Byrne JAG grants before those grants expired; and

  	 as of March 1, 2011, had not spent any of the $174,927 awarded
     under the FY 2008 Byrne JAG grant, which expires
     September 30, 2011.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology appear in Appendix I.




                                 iii
                           TABLE OF CONTENTS


INTRODUCTION ………………………………………………………………. 1 

     Recovery Act ....................................................................... 2 

     Background ......................................................................... 2 

     Audit Approach .................................................................... 3 

OIG FINDINGS AND RECOMMENDATIONS …………………………. 6 

     Internal Control Environment ................................................. 6

          Financial Management System .......................................... 6

          Single Audit ................................................................... 7

     Drawdowns ......................................................................... 7

     Grant Expenditures............................................................... 8 

     Supplanting ......................................................................... 9

     Matching Costs..................................................................... 9

     Accountable Property .......................................................... 10

     Grant Reports .................................................................... 13

          Financial Reports .......................................................... 13

          Progress Reports ......................................................... 14

          Quarterly Recovery Act Reports ..................................... 15

     Program Performance and Accomplishments .......................... 16 

     Monitoring of Sub-recipients ................................................ 18 

     Conclusion......................................................................... 19 

     Recommendations .............................................................. 20 

APPENDIX I -          OBJECTIVES, SCOPE, AND METHODOLOGY..... 22 

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS... 24

APPENDIX III - THE CITY OF BIRMINGHAM'S RESPONSE TO                  

               THE DRAFT AUDIT REPORT............................ 25

APPENDIX IV - OJP'S RESPONSE TO THE DRAFT 

              AUDIT REPORT.............................................. 31

APPENDIX V -          ANALYSIS AND SUMMARY OF ACTIONS 

                      NECESSARY TO CLOSE THE REPORT.............. 34

                                INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of Edward Byrne Memorial Justice
Assistance Grants (Byrne JAG), including a 2009 Recovery Act grant,
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance, to the City of Birmingham, Alabama. The Byrne JAG program is
the primary source of federal criminal justice funding for state and local
jurisdictions. The Byrne JAG Program allows states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their local needs and conditions. Grant funds may be used
for:

      law enforcement programs,

      prosecution and court programs,

      crime prevention and education,

      corrections and community corrections programs,

      drug treatment programs,

      technology improvement programs, and

      crime victim and witness programs.

      As shown in Exhibit 1, since 2006 OJP has awarded the
City of Birmingham $5,017,687 to implement these activities.

       Exhibit 1: Edward Byrne Memorial Justice Assistance

             Grants Awarded to the City of Birmingham

  Grant Number     Start Date  End Date     Award Amount
 2006-DJ-BX-0576 10/01/2005 09/30/2009           $323,415
 2007-DJ-BX-0670 10/01/2006 09/30/2010            529,405
 2008-DJ-BX-0397 10/01/2007 09/30/2011            174,927
 2009-DJ-BX-1029 10/01/2008 09/30/2012            731,334
 2009-SB-B9-1213 03/01/2009 02/28/2013          3,258,606
                   Total                      $5,017,687
Source: Office of Justice Programs




                                      1

Recovery Act

      In February 2009, Congress passed the American Recovery and
Reinvestment Act (Recovery Act) to help create jobs, stimulate the economy
and investment in long term growth, and foster accountability and
transparency in government spending. The Recovery Act provided
$787 billion for tax cuts, education, health care, entitlement programs,
contracts, grants, and loans. Recipients of Recovery Act grant funds are
required to report quarterly to FederalReporting.gov on how they spend their
Recovery Act funds and the number of jobs created or saved. The DOJ
received $4 billion in Recovery Act funds and made $2 billion of that funding
available through the Byrne JAG Program.

Background

       The City of Birmingham and the surrounding metropolitan area have
a population of about 1 million people. During Fiscal Year (FY) 2009, the
city spent $18.5 million in federal awards.1 Two of the Byrne JAG grants we
audited (Grant Numbers 2009-DJ-BX-1029 and 2009-SB-B9-1213) were
based on joint applications between the City of Birmingham and other local
units of government.

      For the Recovery Act grant, the City of Birmingham submitted a joint
application with Jefferson County, and the cities shown in Exhibit 2. The
18 applicants agreed the City of Birmingham would submit the joint
application for funding and would administer the grant.




       1
          Federal awards to the City of Birmingham spent during FY 2009 were from the
Department of Housing and Urban Development ($11.5 million), the Department of Treasury
($90,296), the Department of Justice ($1.9 million), the Office of National Drug Control Policy
($34,646), the Department of Agriculture ($527,131), the Department of Interior ($22,000),
the Department of Transportation ($78,518), and the Department of Homeland Security
($4.4 million).

                                               2

              Exhibit 2: Recipients of Recovery Act Funds 

                   Awarded to the City of Birmingham 

                         Recipient          Amount
                  City of Birmingham       $1,311,501
                  Jefferson County          1,073,047
                  Bessemer                    318,625
                  Fairfield                    90,859
                  Hoover                       79,759
                  Homewood                     77,498
                  Tarrant                      55,502
                  Leeds                        38,029
                  Irondale                     35,768
                  Adamsville                   28,162
                  Midfield                     27,340
                  Trussville                   26,929
                  Hueytown                     18,295
                  Vestavia Hills               18,295
                  Fultondale                   17,062
                  Brighton                     16,651
                  Gardendale                   13,978
                  Pleasant Grove               11,306
                  Total                   $3,258,606
                  Source: Recovery Act Grant Application

      The City of Birmingham planned to use its share of Recovery Act grant
funds to expand its acoustic gunfire sensor program, which helps law
enforcement officers pinpoint the location of gunshots, and purchase
equipment designed to improve response to violent crimes. As the primary
recipient of the grant, the city is responsible for monitoring sub-recipients’
compliance with applicable laws, regulations, guidelines, grant conditions,
spending, and outcomes and benefits attributed to the use of grant funds.

Audit Approach

      The purpose of this audit was to determine whether the City of
Birmingham: (1) used grant funds for costs that were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grants; (2) met or was meeting the goals outlined in
the grant programs and applications; and (3) submitted timely and accurate
Recovery Act spending and job data to FederalReporting.gov.



                                        3

       We tested compliance with what we consider to be the most important
conditions of the grant awards. Unless otherwise stated in our report, the
criteria we audit against are contained in the grant award documents, OJP
Financial Guide, Code of Federal Regulations (CFR), Office of Management
and Budget (OMB) Circulars, and the Recovery Act. We tested the city’s:

  	 internal controls to identify plans, policies, methods, and procedures
     adopted by the city to meet its mission, goals, and objectives;

  	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if the city was managing grant receipts in
     accordance with federal regulations;

  	 supplanting to determine whether the city supplanted local funds
     with federal funds;

  	 grant expenditures to determine the accuracy and allowability of
     costs charged to the grant;

  	 matching costs to determine whether the city met its matching share
     of grant costs;

  	 property management to determine if property acquired with federal
     funds is adequately protected from loss, and the grantee’s records
     indicate the percentage of federal participation in the cost of the
     property;

  	 program income to determine whether the city reported and used
     program income for grant purposes;

  	 financial and progress reports to determine whether the city
     submitted timely and accurate financial and grant progress reports;

  	 Recovery Act reporting to determine whether the city submitted
     timely and accurate spending and job data to FederalReporting.gov;

  	 program performance and accomplishments to determine if the
     city met or is capable of meeting the grant goals and objectives; and

  	 monitoring of sub-recipients to determine whether the city took
     appropriate steps to ensure that sub-recipients complied with
     applicable grant requirements.



                                     4

      In conducting our audit, we performed sample testing in the areas of
grant expenditures; property management; financial, progress, and
Recovery Act reports; grant objectives and accomplishments; and
monitoring of sub-recipients. We determined that matching costs and
program income were not applicable to the grants we tested.




                                     5

            OIG FINDINGS AND RECOMMENDATIONS

      Our audit determined that the City of Birmingham: (1) charged
      $2,513 in unallowable costs to grant funds; (2) spent $55,825
      on property items that the police department plans to keep in
      storage until needed; (3) did not maintain property records on
      all accountable property items bought with DOJ funds and the
      available records did not indicate the source of the funds used to
      purchase the items; (4) did not provide sufficient details on the
      progress of each grant in the reports it submitted to OJP; (5) did
      not meet or could not show that it met grant goals and
      objectives because it had not established measureable goals and
      a system for collecting and analyzing data to assess progress;
      (6) did not monitor and had no procedures for monitoring sub-
      recipients to ensure they met or will meet the programmatic
      requirements of the grants; (7) did not spend $56,376 in grant
      funds from two grants before those grants expired; and (8) as of
      March 1, 2011, had not spent any of the $174,927 awarded
      under the FY 2008 Byrne JAG grant, which expires
      September 30, 2011.

Internal Control Environment

       We reviewed the City of Birmingham’s financial management systems,
policies and procedures, and Single Audit report to assess the risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grants. We also interviewed city officials responsible for fixed assets,
purchasing, and accounts payable, and we observed accounting and grant
management activities to further assess risk.

Financial Management System

     At the time of our audit, the City of Birmingham had one financial
management system for fixed assets and payroll and another system for
general ledger, purchasing, cash collections, and budgeting. Both systems
appeared to have adequate systems of internal controls to ensure
compliance with applicable requirements of the grant programs we audited.
The systems of control provided adequate separation of duties, separate
accounting for each grant and traceability to supporting documentation.




                                       6

Single Audit

       According to OMB Circular A-133, the City of Birmingham is required to
perform a Single Audit annually with the report due no later than 9 months
after the end of the fiscal year. The City of Birmingham’s fiscal year is
July 1 through June 30. The City of Birmingham’s 2009 Single Audit report
was issued timely on December 28, 2009. The report had no findings
related to federally awarded grant funds. The audit report stated that the
City of Birmingham qualified as “low-risk” auditee.

Drawdowns

       The OJP Financial Guide, Part III, Chapter 1, generally requires that
recipients time their drawdown requests to ensure that federal cash-on-hand
is the minimum needed for disbursements to be made immediately or within
10 days. For Byrne JAG grants, recipients may draw down any or all grant
funds in advance of grant costs. However, the recipients must establish a
trust fund in which to deposit the drawdowns.

      All of the grants we audited were awarded under the Byrne JAG
Program. Consequently, we did not test whether the city had excess federal
cash-on-hand for those grants because the city was permitted to draw funds
in advance of incurring costs. However, city officials told us that drawdowns
were based on actual expenditures recorded in the accounting records. For
the grants we audited, we compared each drawdown to the city’s accounting
records and found that drawdowns generally matched grant expenditures.
We confirmed that the funds drawn down were deposited electronically into
a bank account. Because the city did not draw down the funds in advance, it
was not required to establish a trust fund in which to deposit the funds.

      During our testing of drawdowns we noted that the city did not use all
the grant funds awarded under Grant Numbers 2006-DJ-BX-0576 and
2007-DJ-BX-0670. On March 2, 2010, OJP deobligated $19,687 of unspent
funds awarded under Grant Number 2006-DJ-BX-0576 and on February 2,
2011, OJP deobligated $36,689 of unspent funds awarded under Grant
Number 2007-DJ-BX-0670.

       We also noted that as of February 28, 2011, none of the $174,927
awarded under the FY 2008 Byrne JAG program (Grant Number
2008-DJ-BX-0397) had been drawn down and neither the city nor the
sub-recipient, Jefferson County, had incurred any grant-related costs. The
city planned to use its share of the grant to establish a cyber crime training
program in the Birmingham Police Department. The county planned to use


                                       7

its share of the grant to purchase mobile data terminals needed to upgrade
its records management system.

       In August 2010, a police department official told us the cyber crime
training program was on hold pending decisions on staffing levels and the
location of the training unit. In November 2010, that official told us the city
was not going to implement the grant project as originally planned, but
would seek additional time to draw down and spend the FY 2008 Byrne JAG
funds. In January 2011, that official told us that the police department “is
planning to proceed with the grant as is.”

       For the county’s portion of the FYs 2008 and 2009 Byrne JAG grants,
county officials stated in an October 22, 2010, e-mail to the police
department that the county plans to expend the FY 2010 Byrne JAG funds
before the county decides what to do with the 2008 and 2009 funds. County
officials also stated in the e-mail that they will ask for additional time to
expend the FY 2008 funds.

     On March 1, 2011, the city’s Grant Administrator told us there had
been no activity by the police department or the county to spend the
FY 2008 grant funds. The grant ends September 30, 2011.

      We recommend that OJP ensure the city implements an approved plan
to spend the $174,927 awarded under the 2008 Byrne JAG grant (Grant
Number 2008-DJ-BX-0397). The city may need to seek additional time to
implement the plan. According to the grant solicitation, recipients must
request additional time no less than 30 days prior to the grant end date.

Grant Expenditures

      According to the OJP Financial Guide, Part III, Chapter 7, allowable
costs are those identified in OMB circulars and the grant program’s
authorizing legislation. In addition, costs must be reasonable and
permissible under the specific guidance of the grants.

     As shown in Exhibit 3, we tested 80 transactions totaling $627,222,
which is 92 percent of the direct costs charged to the grants we audited.




                                       8

               Exhibit 3: Grant Expenditure Testing
                   Funds     Transactions Expenditures               Percent
  Grant Number   Expended        Tested        Tested                Tested
 2006-DJ-BX-0576  $155,795          25          $143,865               92%
 2007-DJ-BX-0670   257,570          25           215,567                84%
 2008-DJ-BX-0397          0          0                 0                 0%
 2009-DJ-BX-1029     19,287          7            19,287              100%
 2009-SB-B9-1213   248,503          23           248,503              100%
 Totals          $681,155          80          $627,222                92%
Source: City of Birmingham accounting records

      We found that all the expenditures we tested were properly
authorized, correctly classified in the accounting records, supported by
appropriate documentation, and properly charged to the grants. However,
during our testing of property items bought with grant funds we identified
10 property items valued at $2,513, were not being used for the purposes
stated in the grant applications. We question the $2,513 as unallowable
expenditures. Details of our testing of property items are presented in the
Accountable Property section of this report.

Supplanting

       The OJP Financial Guide, Part II, Chapter 3, states that federal funds
must be used to supplement existing state and local funds for program
activities and must not replace those funds that have been appropriated for
the same purposes. If there is a potential presence of supplanting, the
grantee will be required to supply documentation demonstrating that the
reduction in local resources occurred for reasons other than the receipt or
expected receipt of federal funds.

      To determine whether the City of Birmingham supplanted local funds
with federal funds, we compared the Birmingham Police Department’s
budgets for fiscal years 2005 through 2010 to the grant budgets for
indications of possible supplanting. Based on our review, we found no
indication that the City of Birmingham used federal funds to supplant local
funds.

Matching Costs

      According to the OJP Financial Guide, Part III, Chapter 3, matching
funds for a grant project must be in addition to funds that would otherwise
be available. Grant recipients must maintain accounting records that show
the source, amount, and timing of all matching contributions. The full


                                          9

matching share of costs must be obligated by the end of the award period.
We determined the City of Birmingham did not have a matching requirement
for the grants we audited.

Accountable Property

       According to the OJP Financial Guide, Part III, Chapter 6, grant
recipients must be prudent in the acquisition and management of property
items bought with federal funds and must ensure that those items are used
for criminal justice purposes. The OJP Financial Guide also states that grant
recipient organizations should carefully screen any planned acquisitions to
ensure the property is needed. While there is no standard for screening,
organizations should consider the cost of the property when making
purchasing decisions.

      We found that the city’s accountable property records did not include
items costing less than $1,000. Neither the city’s nor the police
department’s system of property records included information about the
source of the funds used to acquire the property. Consequently, neither the
city nor the police department could provide a complete list of property
items bought with DOJ funds. However, the police department created a list
of property items using the purchase orders associated with the grants we
audited. From that list we selected a judgmental sample of 88 items valued
at $132,937 for testing, which was 32 percent of the grant funds spent on
equipment and property items. We verified whether the city could account
for those items and whether the items were being used for the purposes
stated in the grant applications. Details of our testing are explained below.

      Grant Number 2006-DJ-BX-0576. We tested 10 items valued at
$9,229, which is 19.6 percent of the grant funds spent on equipment. We
physically verified all 10 items and determined that 8 of those items were
being used for grant purposes. Two items (an external hard drive and a
printer) valued at $1,125 were in the police department’s Technology Office
storage area and were not being used. A police department official told us
they were not aware these items were in storage. We do not question these
items because the items can be used to implement the grant project. The
grant period ended September 30, 2009.

      Grant Number 2007-DJ-BX-0670. We tested 24 items valued at
$71,701, which is 35.2 percent of the grant funds spent on equipment. We
physically verified 23 of the 24 items tested and determined that 20 of the
items were used for grant purposes. Three items (a scanner, external hard
drive, and printer) having a total value of $2,769 were stored in the police


                                     10

department’s Technology Office storage area and were not being used. A
police department official told us they were not aware these items were in
storage. We do not question these items because the items can be used to
implement the grant project.

       Neither the city nor the police department could account for a
computer monitor valued at $251. A police department official told us the
monitor had been transferred to another office in the city government;
however, we could not verify the existence of that item because the city
official responsible for that item was not available at the time of our audit.
According to the property listing provided by the police department, nine
additional computer monitors were also assigned elsewhere in the city
government. A police department official confirmed that the police
department had transferred 10 computer monitors valued at $2,513 to other
city offices. Because the police department disposed of the monitors by
transferring them elsewhere in the city where they are being used for
purposes unrelated to the grant, we question the $2,513 charged to the
grant for these items as unallowable. The grant ended September 30, 2010.

      Grant Number 2009-DJ-BX-1029. We tested 23 items valued at
$22,504, which is 80.8 percent of the grant funds spent on equipment. We
physically verified all 23 items and determined the items were being used for
grant purposes.

       Grant Number 2009-SB-B9-1213 (Recovery Act). We tested 31 items
valued at $29,503, which is 21.7 percent of the grant funds spent on
equipment. We verified that three items selected for testing were never
received and should not have been included in the property listing. Of the
remaining 28 items selected for testing, 18 were being used for grant
purposes and 10 items (a projector, 2 desktop computers, a laptop
computer, 4 monitors, a scanner, and a wireless microphone) were in
storage and were not being used for grant purposes. The total value of the
10 items was $11,006. At the time of our audit, the police department had
owned the items for 2 months and was processing the items for distribution.
During our verification of these property items we identified 18 additional
items bought with grant funds (6 laptop computers, 6 monitors, and
6 wireless microphones) that were also in storage. The police department
had also received these items 2 months earlier. A police department official
told us the department had bought seven mobile communications units,
each consisting of a laptop computer, a monitor, and a wireless microphone
that it planned to use as replacement parts for units already installed in
police vehicles. The total value of the seven communications units
(21 component parts) was $55,825, which is 41 percent of the Recovery Act


                                     11

grant funds the city had spent. The mobile communications units were listed
in the grant budget submitted to OJP and can be used for law enforcement
purposes, but the budget did not indicate the items would be used as
replacement parts. We do not question these items; however, because they
are being kept in storage as replacement parts, the city apparently did not
need the items to implement the grant project. The police department
should ensure it purchases only the items it needs to implement the grant
project.

      In summary, the city’s property records did not include all items
purchased by the police department and neither the city’s nor the police
departments’ property records identified the source of funds used to
purchase the items. To complete our audit, the police department created a
property listing using its property records and the purchase orders
associated with the grants we audited. We tested 88 property items valued
at $132,937, which is 32 percent of the grant funds spent on equipment.
We found that 10 property items valued at $2,513 had been transferred
elsewhere in the city and were not being used for law enforcement purposes.
We question the $2,513 as unallowable grant costs. We also found that 33
property items valued at $62,750 were in the Technology Office storage
area.2 At the time of our audit, the police department had owned the items
for 2 months. We do not question these 33 items because they were listed
in the grant budget submitted to OJP and can be used for law enforcement
purposes, but the grant budgets did not indicate that these items would be
used as “extras” or replacements. The police department plans to keep 21
of these items valued at $55,825 in storage until they are needed. In our
judgment, the acquisition of these items was not well planned because the
city bought items that it apparently did not need to implement the grant
project.

       We recommend OJP ensure the city implements a system for tracking
property items bought with federal funds. We also recommend that OJP
remedy the $2,513 spent on property items that the police department
transferred to other city offices. We also recommend that the city carefully
screen future purchases made with grant funds to ensure it purchases only
the items it needs to implement the grant project.




      2
         The 33 items included 7 laptop computers, 7 monitors, and 7 wireless microphones,
which made up 7 mobile communications units. One communications unit (with 3 separate
components) was in our sample and 6 communications units (with 18 separate components)
were not part of our sample.

                                           12

Grant Reports

      Grantees are required to submit timely and accurate financial reports
and grant progress reports to OJP. Prior to October 2009, the city was
required to submit quarterly Financial Status Reports (FSR) to OJP within
45 days after the end of each quarterly reporting period. Beginning
October 1, 2009, the Federal Financial Report (FFR) replaced the FSR. FFRs
are due 30 days after the end of each calendar quarter. A final financial
report is due 90 days after the end of the grant period.

      Grantees are required to submit annual performance (progress)
reports unless the awarding agency requires quarterly or semi-annual
reports. Annual reports are due 90 days after the grant year. The final
performance report is due 90 days after the expiration of the grant.

      For Recovery Act grants, grant recipients are required to report
quarterly to FederalReporting.gov their grant expenditures and the number
of jobs created or saved.

Financial Reports

      We reviewed the FSRs or FFRs for the four most recent quarterly
reporting periods for each of the five grants to determine whether the
reports were timely and whether the reported expenditures agreed with the
City of Birmingham’s accounting records.

       As shown in Exhibit 4, 4 of the 20 financial reports we reviewed were
each submitted 3 days late. According to a City of Birmingham official, the
late reports were the result of administrative oversights. We consider the
late reports a minor exception and make no recommendation regarding the
timeliness of financial reports.




                                     13

        Exhibit 4: Federal Financial Reports Submitted Late
                     REPORT PERIOD      REPORT      DATE              DAYS
  GRANT NUMBER      FROM - TO DATES    DUE DATE SUBMITTED             LATE
 2007-DJ-BX-0670     4/01- 6/30/2010   7/30/2010 8/02/2010             3
 2008-DJ-BX-0397     4/01- 6/30/2010   7/30/2010 8/02/2010             3
 2009-DJ-BX-1029     4/01- 6/30/2010   7/30/2010 8/02/2010             3
 2009-SB-B9-1213     4/01- 6/30/2010   7/30/2010 8/02/2010             3
Source: Office of Justice Programs

      We also tested the accuracy of these financial reports by comparing
the reported expenditures to the city’s accounting records. We found that
19 of the 20 financial reports we tested matched the accounting records.
However, the financial report for the quarter ended December 31, 2009, was
overstated by $94,966. According to a City of Birmingham official, the
report was incorrect because expenditures of $94,966 were included twice in
the cumulative total reported to OJP. The error was found and corrected on
the FFR for the quarter ended March 31, 2010. Consequently, we make no
recommendation regarding the accuracy of financial reports.

Progress Reports

      According to the OJP Financial Guide, Part III Chapter 11, award
recipients must submit program (progress) reports annually for
block/formula awards. These reports should describe the status of the
project and include a comparison of actual accomplishments to the
objectives, or other pertinent information. Also, according to
28 CFR § 66.40, progress reports will contain for each grant, brief
information on:

   	 a comparison of actual accomplishments to the objectives established
      for the period;

   	 the reasons for slippage if established objectives were not met; and

   	 additional pertinent information including, when appropriate, analysis
      and explanation of cost overruns or high unit costs.

     We tested whether the City of Birmingham submitted timely,
complete, and accurate progress reports.

      We evaluated the timeliness of progress reports for the last 2 years for
each of the 2006 through 2009 JAG grants, including the Recovery Act grant
of 2009. We found that all of the tested progress reports were filed timely.

                                     14

       We also tested the completeness and accuracy of progress reports by
comparing accomplishments described in the most recent report to the grant
application and supporting documentation maintained by the grantee. For
Grant Numbers 2007-DJ-BX-0670, 2009-DJ-BX-1029, and
2009-SB-B9-1213, the city reported only that it had purchased the
equipment described in the grant applications. Because we physically
verified various items of equipment bought with funds from these grants, we
considered that the progress reports were accurate. For Grant
Number 2006-DJ-BX-0576, the city reported that it had increased police
officer communications capabilities and that police officers were able to
access information more quickly and efficiently. Our concerns about this
report are presented in the following section of this audit report. For Grant
Number 2008-DJ-BX-0397, the progress report dated January 18, 2011,
stated that the city had not yet started to implement the project and would
not be able to complete the project by the end of the award period on
September 30, 2011. Our concerns about this progress report are also
presented in the following section of this audit report.

      In summary, the progress reports we reviewed were submitted timely
and were generally complete and accurate. However, as discussed in the
Program Performance and Accomplishments section of the report, some
progress reports did not contain sufficient detail to enable us to determine
whether the city met, or was making progress at meeting, the goals and
objectives of the grants.

Quarterly Recovery Act Reports

      Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to report their expenditures and jobs created or saved to
FederalReporting.gov. The initial report was due October 10, 2009, with
quarterly reports due 10 days after the close of each quarter thereafter.

      Our review of the city’s Recovery Act reporting found that three of the
four reports required at the time of our audit work were submitted timely.
The city did not submit the initial Recovery Act report due October 10, 2009.
According to a Birmingham Police Department official, the department was
not aware it had to submit a report when there was no grant activity to
report. We make no recommendation regarding the initial report because
police department officials now appear to understand the requirements for
submitting quarterly reports.

     We compared the January 10, 2010, report submitted by the city to
supporting documentation for accuracy and determined that reported


                                     15

equipment expenditures were overstated by $94,966. The report was
incorrect because the city reported $94,966 twice in an earlier financial
report. The error was corrected in a subsequent financial and Recovery Act
report. The Recovery Act grant was only for the purchase of equipment;
therefore the city had no job data to report. Our review of the equipment
purchased found it was intended for law enforcement purposes.

Program Performance and Accomplishments

       Grant performance and accomplishments should be based on
measurable outcomes rather than on counting activities. The Government
Performance and Result Act provides a framework for setting goals,
measuring progress, and using data to improve performance. To measure
progress, grantees should establish a baseline measure and a system for
collecting and analyzing data needed to measure progress.

      To evaluate program performance and accomplishments we reviewed
the grant applications, the most recent grant progress reports, and
supporting documentation maintained by the City of Birmingham. We found
that neither the City of Birmingham nor the police department tracks
program performance or accomplishment data related to the goals and
objectives the city stated in its application narratives for the 2006 through
2009 Byrne JAG grants, including the 2009 Recovery Act grant. According
to a Birmingham Police Department official, procedures for reporting
performance have not been established. The police department tracks
whether it spent the grant funds and acquired the equipment but it does not
track programmatic and performance data for the grant projects. The
results of our evaluation for each grant are explained below.

      Grant Number 2006-DJ-BX-0576. The objective of this grant was to
make accurate data available to the officer in the field by expanding mobile
data operations and improving network speed and access to data. We
reviewed the final progress report, dated January 29, 2009, in which the city
reported that the new equipment had increased police officers’
communication capabilities and officers were able to access and receive data
faster and more efficiently. However, the progress report did not state how
much communication capabilities had improved or how quickly officers were
now able to access and receive data. Consequently, we could not determine
whether the city had met the goals and objectives of the grant. The Grants
Administrator could not explain why the city did not establish and track
measureable goals. She told us the city would respond to that issue when it
receives a copy of the audit report. The police department needs to



                                     16

establish a baseline measure of performance and a system for collecting and
analyzing data to evaluate the benefits received from the new equipment.

       Grant Number 2007-DJ-BX-0670. The goals of the grant were to:
(1) make accurate data available to the officer in a timely and efficient
manner, (2) support a variety of law enforcement technology needs, and
(3) implement police officer training programs and equipment. We reviewed
the city’s accounting records and the final progress report, dated
November 29, 2010, in which the city reported that the police department
had purchased: (1) new computers that will be compatible with the records
management system it plans to purchase; (2) digital cameras, projectors
and computers that officers needed to function more efficiently; and
(3) training equipment designed to protect officers and others from
accidental shootings. However, we could not determine whether the city
met or was meeting the goals of the grant because the report did not
discuss whether the equipment was operational or how it helped the police
department to achieve the goals and objectives of the grant. Consequently,
we could not determine if grant goals and objectives were met.

       Grant Number 2008-DJ-BX-0397. The objective of this grant was to
establish a cyber crime training program within the Birmingham Police
Department. In August 2010, we asked Birmingham Police Department
officials for the status of the cyber crime training program and we were told
that the program was on hold pending decisions on staffing levels and the
location of the training unit. The most recent progress report dated
January 18, 2011, stated that no activity had occurred and the program was
not on track to be completed by September 30, 2011. The report stated
that the police department planned to request an extension of time to
implement the project. On January 20, 2011, a police department official
told us the department still plans to implement the project, but we
determined that as of March 1, 2011, none of the grant funds had been
drawn down. The grant award period ends on September 30, 2011.
Because the project has not been implemented, grant goals and objectives
are not being met and may not be met.

      Grant Number 2009-DJ-BX-1029. The objectives of the grant were to
improve technical operations and crime fighting capabilities by purchasing
new technologies and upgrade equipment and officer processes. The
progress report dated November 17, 2010, stated that most of the
equipment had been received and police department staff were learning how
to operate the new equipment. We reviewed the city’s accounting records
and, although the city purchased the equipment outlined in the grant
application, the progress report did not provide information about how the


                                     17

equipment had improved the police department’s technical operations. The
police department needs to establish a baseline from which to measure and
report on the benefits achieved from the new equipment. Consequently, we
could not determine whether the city was making progress at achieving
grant goals and objectives.

      Grant Number 2009-SB-B9-1213. The goals of the grant were to
implement a technology improvement program, expand the acoustic gunfire
sensor program, and purchase specialized equipment for a mobile crime
reduction team. In its November 17, 2010, progress report the city reported
that “the Birmingham Police Department purchased a number of computers
and supplies that are being used by department staff which enables them to
perform the day-to-day duties more efficiently.” We reviewed the
accounting and property records and determined that the city had purchased
computers, mobile data terminals, protective vests, global positioning
system units, and digital measuring wheels. Although the city purchased
these equipment items, the progress report did not state whether the items
were operational or how they improved the police department’s operations.
Consequently, we could not determine whether the city was making progress
at achieving grant goals and objectives.

       In summary, for four of five grants we reviewed, the city had
purchased equipment in accordance with its grant applications but had not
identified measurable goals for each grant or established a system for
collecting and analyzing data to determine whether those goals and
objectives of the grants were being met. We asked the Grants Administrator
why the city did not establish and track measureable goals for Grant
Numbers 2006-DJ-BX-0576, 2007-DJ-BX-0670, 2009-DJ-BX-1029, and
2009-SB-B9-1213. She told us the city would respond to that issue when it
receives a copy of the audit report. For Grant Number 2008-DJ-BX-0397, as
of March 1, 2011, the city had not implemented the grant project or drawn
down any of the grant funds. Consequently, the city may not meet the goals
and objectives of that grant. The grant award period ends September 30,
2011. The city needs to implement a process to identify measurable goals
and a system for collecting and analyzing data to assess whether the goals
and objectives are being met.

Monitoring of Sub-recipients

      According to the OJP Financial Guide, Part III, Chapter 9, primary
recipients of grant funds are responsible for monitoring sub-recipients to
ensure the sub-recipients fulfill the fiscal and programmatic requirements of
the grants. The primary recipient is responsible for all aspects of the


                                     18

program including proper accounting and financial recordkeeping by the sub-
recipient including the receipt and expenditure of funds and cash
management.

      The City of Birmingham and Jefferson County submitted joint grant
applications for Byrne JAG Grant Numbers 2006-DJ-BX-0576,
2007-DJ-BX-0670, 2008-DJ-BX-0397, 2009-DJ-BX-1029 (which includes
5 additional municipalities), and 2009-SB-B9-1213 (which includes
16 additional municipalities). As the primary recipient and fiscal agent for
these grants, the City of Birmingham was responsible for monitoring the
sub-recipients’ compliance with fiscal and programmatic requirements.

       We found that the City of Birmingham has no procedures in place for
monitoring sub-recipients to ensure they meet the programmatic
requirements of the grants. According to a Birmingham Police Department
official, the monitoring of sub-recipients is limited to the distribution of funds
and the submitting of reports. Police department officials told us they were
not aware they needed to monitor sub-recipients’ compliance with
programmatic requirements.

      We recommend the City of Birmingham implement a process for
monitoring sub-recipients to ensure they meet the programmatic
requirements of the grants.

Conclusion

      The City of Birmingham generally complied with the requirements
pertaining to internal controls, grant drawdowns, and supplanting. However,
we found weaknesses in the management of accountable property, grant
reporting, program performance and accomplishments, and monitoring of
sub-recipients. Specifically, we found the following.

   	 The police department transferred 10 items valued at $2,513 to other
      city offices. Those items are not being used for law enforcement
      purposes. We question the $2,513 as unallowable grant costs.

   	 The city spent $55,825 for property items it plans to keep in storage
      until they are needed. Those items were apparently not needed to
      implement the grant project.

   	 The city’s property records did not include all items bought with DOJ
      funds and did not indicate the source of funds used to purchase the
      items.


                                       19

  	 The city generally submitted timely and accurate financial reports.
     However, the city did not provide sufficient details on the progress of
     each grant in the progress reports it submitted to OJP.

  	 The city did not meet, or could not show that it met, grant goals and
     objectives. For all the grants, the city had not identified measureable
     goals or established a system to collect and analyze data needed to
     assess progress.

  	 The city did not monitor and had no procedures for monitoring sub-
     recipients to ensure they meet the programmatic requirements of the
     grants.

  	 The city did not spend $56,376 in grant funds awarded under the
     FYs 2006 and 2007 Byrne JAG grants before those grants expired.

  	 As of March 1, 2011, the city had not spent any of the $174,927
     awarded under the FY 2008 Byrne JAG grant, which expires
     September 30, 2011.

     Because of these weaknesses, below we recommend that OJP remedy
$2,513 in unallowable grant costs and make seven recommendations to
improve the city’s management of grants.

Recommendations

       We recommend that OJP:

 1.	   Remedy the $2,513 in unallowable equipment costs charged to Grant
       Number 2007-DJ-BX-0670.

 2.	   Ensure the city implements procedures to carefully screen any
       planned acquisitions to ensure it purchases only those items it needs
       to implement the grant project.

 3.	   Ensure the city maintains a system of property records that includes
       all accountable property items bought with DOJ funds, and that the
       records indicate the source of the funds used to purchase the items.

 4.	   Ensure the city’s grant progress reports include detail on the progress
       of each grant, including a comparison of measureable goals to



                                      20

      accomplishments and the reasons for slippage if goals are not being
      met.

5.	   Ensure the city implements a process for identifying measurable goals
      for each grant and a process for collecting and analyzing data to track
      performance through the completion of the grants.

6.	   Ensure the city implements a process for monitoring sub-recipients to
      ensure they meet the programmatic requirements of the grants.

7.	   Ensure the city implements procedures to monitor the remaining
      balance of unexpired grants and, if necessary and permitted by OJP,
      seek additional time to draw down and spend the remaining funds.

8.	   Ensure the city implements an approved plan to spend the $174,927
      awarded under Grant Number 2008-DJ-BX-0397.




                                     21

                                                              APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal controls, (2) grant drawdowns,
(3) supplanting, (4) grant expenditures, (5) matching costs, (6) property
management, (7) program income, (8) financial and progress reports,
(9) Recovery Act reporting, (10) program performance and
accomplishments, and (11) monitoring of sub-recipients. We determined
that personnel costs, indirect costs, matching, and program income were
not applicable to this grant.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit scope covered the 2009 Byrne JAG Recovery Act and four
earlier Byrne JAG grants that had sufficient activity to test the grantee’s
management of grants and sub-recipients. We tested compliance with
what we consider to be the most important conditions of the grants.
Unless otherwise stated in our report, the criteria we audit against are
contained in the Office of Justice Programs Financial Guide, Office of
Management and Budget Circulars, and grant award documents.

       In conducting our audit, we performed sample testing in drawdowns,
grant expenditures, financial reports, progress reports, property
management, and program performance and accomplishments. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts or
expenditure category. We selected judgmental sample sizes for the testing
of each grant. This non-statistical sample design does not allow projection
of the test results to the universe from which the samples were selected.

     In addition, we reviewed the timeliness and accuracy of FFRs, Progress
Reports, and Recovery Act reports, and evaluated whether grant goals and

                                      22

objectives were being met and whether the city adequately monitored sub-
recipients. However, we did not assess the reliability of the financial
management system as a whole.




                                   23

                                           APPENDIX II

          SCHEDULE OF DOLLAR-RELATED FINDINGS

Description                               Amount    Page

Unallowable Costs:

2007-DJ-BX-0670 (10 20” Monitors)          $2,513     11

     Total Dollar-Related Findings         $2,513




                                    24

                                                                        APPENDIX III

            THE CITY OF BIRMINGHAM’S RESPONSE
                TO THE DRAFT AUDIT REPORT




                               OFFICE OF THE MAYOR
                               CITY OF BIRMINGHAM

                                WILLIAM A. BELL, SR.
                                       MAYOR



May 6, 2011 


Ferris B. Polk 

Regional Audit Manager 

Office of the Inspector General 

Atlanta Regional Audit Office 

75 Spring Street, Suite 1130 

Atlanta, GA 30303 


Dear Mr. Polk: 


Please find attached the City of Birmingham response to the Office the Inspector 

General's Draft Audit Report, of the Office of Justice Programs, Edward Byrne Memorial 

Justice Assistance Grant Programs. A copy of our response has also been forwarded to 

the Office of Justice Programs for their review. 


The responses provided to the recommendations, should dismiss any concerns as to the 

ability of the City of Birmingham's staff to report and manage the federal programs 

awarded to the City. 



Sincerely,

William A. Bell, Sr.

Mayor 




710 NORTH 20TH STREET BIRMINGHAM, ALABAMA 35203 (205) 254-2277 FAX (205) 254-2926



                                            25

  City of Birmingham Response to the Office of Inspector General Findings:
The following is our response to findings and recommendations from the Office of Inspector
General’s (OIG) draft audit report of Office of Justice Programs, Edward Byrne Memorial
Justice Assistance Grants awarded to the City of Birmingham, Alabama. The draft audit report
contains eight recommendations.

The City of Birmingham accepts the audit recommendations as outlined in the response;
nevertheless, we do not agree with the audit result on page 20, which states that we did not
monitor and had no procedures for monitoring subrecipients to ensure they met or will meet the
programmatic requirements of the grant. The City has always used the guidelines provided in
the Office of Justice Programs Financial Guide and information obtained from the Department of
Justice Office of Justice Programs Seminar on Financial Management Workshop as a guide to
establish compliance with Federal rules and regulations. (e.g., A-133 compliance, EEO
compliance) These requirements were provided to each subrecipient during our program
planning meeting and plans are currently in place to visit each subrecipient in order to monitor
their compliance of these requirements.

1.	 Remedy the 2,513 in unallowable equipment costs charged to Grant Number 2007-DJ-
    BX-0670.

   Please refer to page 12 of the draft audit report; paragraph two: “We found that 10 property
   items valued at $2,513 had been transferred elsewhere in the city and were not being used for
   law enforcement purposes.”

   The 10 items are personal computer monitors. They are located at the City of Birmingham’s
   IMS training room. The Birmingham Police Department has a need to train officers on a
   variety of software platforms. The most important is the payroll module and special events
   assignments software. Each Birmingham Police Department recruit class is trained on our
   payroll system prior to graduation. We also have a need to train our officers on programs
   such as Microsoft Word, Microsoft Power Point and Microsoft Excel. All of these classes
   are afforded at the IMS training room. The support of this training room augments our
   ability to train police personnel on critical applications. We prepare our officers to use
   technology not only for their safety but as a series of tools to increase the safety of our streets
   and therefore increase the safety of our citizens.

2. 	 Ensure the city implements procedures to carefully screen any planned acquisitions to
     ensure it purchases only those items it needs to implement the grant project.

   The Grants Manager will work closely with Command Staff and Program Project Managers
   to research all proposed projects in order to request specific justifications for all items
   considered necessary for the implementation of the project.




                                                26

3.	 Ensure the city maintains a system of property records that includes all accountable
    property items bought with DOJ funds, and that the records indicate the source of the
    funds used to purchase the items.

   Please refer to page 18 of the draft audit report, second paragraph: “In summary, the city’s
   property records did not include all items purchases by the police department and neither the
   city’s nor the police departments’ property records identified the source of funds used to
   purchase the items.”

   The Birmingham Police Department works closely with other city departments responsible
   for creating purchase orders, requisitions and grant expenditures. We experienced a
   disconnect with respect to documenting the funding source of each purchase. It was brought
   to our attention that the purpose of documenting the funding source was to re-invest monies
   that were paid to the City of Birmingham as a result of auctions of un-useable grant
   purchased equipment. Prior to the audit, we deposited monies from our auctions directly into
   the general city fund and not the specific grant fund. We immediately prepared for our next
   auction and separated the items to be auctioned by grant and into specific lots. We were
   subsequently informed by an auditor, that the monies from the auctions did not have to go
   back into the grant fund that from which the items were purchased. As we currently
   understand the guidance given, we do not have to return (deposit) monies from auctions into
   specific grant funds. However, due to the confusion for reasons for tracking the funding
   source, we have implemented the following safeguards: each of the items purchased will be
   clearly labeled with all purchase information to include funding source (if the item is large
   enough); all documents and receipts to our department for each item purchased has a required
   field naming the specific funding source and finally, each install/repair/replace ticket has a
   field naming the specific funding source for each item purchased.

   Additionally, immediately upon learning we were to include the funding source for each item
   purchased with grant dollars, we did a complete inventory of all purchases and included the
   funding source – as applicable – in a database and clearly marked each item with the
   respective funding source by physical application of labels.

   We feel we have more than met the recommendation of the auditors with respect to the
   inventory/accountability process.

4.	 Ensure the city’s grant progress reports include detail on the progress of each grant,
    including a comparison of measurable goals to accomplishments and the reasons for
    slippage if goals accomplishments and the reasons for slippage if goals are not being
    met.

   The Program Project Managers will be responsible for collecting, analyzing and tracking data
   that adequately measures the performance of each grant program as well as maintaining
   complete documentation of program activities throughout the life of the grant program.




                                              27

5.	 Ensure the city implements a process for identifying measurable goals for each grant
    and a process for collecting and analyzing data to track performance through the
    completion of the grants.

   The Grants Manager will work closely with Command Staff and the Program Project
   Managers to develop specific goals that can adequately measure the required
   accomplishments of each grant program. The Program Project Managers will be responsible
   for collecting, analyzing and tracking data that will adequately measure the performance as
   well as maintaining complete documentation of program activities throughout the life of the
   grant program.

6.	 Ensure the city implements a process for monitoring sub-recipients to ensure they meet
    the programmatic requirements of the grants.

   The Grant Manager met with each sub-recipient on August 17, 2009 and provided copies of
   the required Conditions of Award and Reporting Requirements that were obtained from
   Office of Justice Program’s Financial Guide. Each condition was discussed in detail and
   copies were provided for their future record. In order to ensure programmatic requirements
   are met the enclosed Attachment A will be used during monitoring of sub-recipients visits.

7.	 Ensure the city implements procedures to monitor the remaining balance of unexpired
    grants and, if necessary and permitted by OJP, seek additional time to draw down and
    spend the remaining funds.

   The Grant Manager and the Senior Accountant will continue to monitor all program balances
   in order to ensure that all grant funds are expend prior to the expiration of the program. The
   2006 and 2007 remaining balances discussed on page 20 of the audit report, mentioned that
   the City did not spend $56,376.00. The majority of this balance represents funds that were
   awarded to the Jefferson County Sheriff Office, who were notified in time, but failed to
   expend the remaining funds prior to the expiration of the program. It has always been our
   practice to request grant extensions to complete our goals and objectives, if it is determined
   that we will not complete the program within the approved project period. Therefore, we are
   currently seeking additional time to adequately complete the 2008 Justice Assistance Grant
   Project.

8.	 Ensure the city implements an approved plan to spend the $174,927 awarded under
    Grant Number 2008-DJ-BX-0397.

   The actual award to Birmingham is approximately $96,000. The remainder of the grant was
   awarded to Jefferson County. We have an implementation plan in place and have been in
   contact with several experts in the field of cyber crime and cyber fraud for the purpose of
   drawing upon their expertise with training and technology. We have done extensive research
   on the latest technology that can be utilized by officers to prosecute cyber crime offenders.
   Training topics on technology, criminal procedural law updates, best practices, chain of
   custody issues and proper cyber forensic evidence collection – to name a few – are included
   in our training plans. Project objectives and goals are being met within self-imposed target

                                              28

dates. We are committed to fully complying with all of the requirements for this grant and
are confident we will complete the project in a timely fashion.




                                           29

                      ATTACHMENT A:           Sub-Recipients Monitoring

The Grant Manager will conduct annual site visits with each sub-grantee in order to review their
financial, programmatic and administrative compliance to the application, terms and special
condition requirements.


Procedure:
      1.	     Grant Manager will review grant files of sub-recipients to verify compliance with
              programmatic and financial requirements.

       2.	    The following details will be checked by the Grant Manager in order to determine
              accurate control of inventory purchased with grant funds:

              1.)     Description of the property
              2.)     Serial number or other identification number
              3.)     Name of source used to purchase the property and the award number
              4.)     Identification of the holder
              5.)     Date ordered and date received
              6.)     Cost of the property
              7.)     Location, use and condition of the property

       3.	    Review and discuss progress report requirements and notify sub-recipient of
              final progress report instructions and the closeout process.


       4.	    Discuss observation and assessment of project activities during exit interview.
              Provide sub-recipient with copy of findings and/or recommendations for
              improvements.




                                               30

                                                                          APPENDIX IV

         OJP’s RESPONSE TO THE DRAFT AUDIT REPORT

                                                 U.S. Department of Justice

                                                 Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




May 13, 2011

MEMORANDUM TO:               Ferris B. Polk
                             Regional Audit Manager
                             Office of the Inspector General
                             Atlanta Regional Audit Office

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Edward Byrne Memorial Justice Assistance Grants Awarded to the
                             City of Birmingham, Alabama

This memorandum is in response to your correspondence, dated April 8, 2011, transmitting the
subject draft audit report for the City of Birmingham (City). We consider the subject report
resolved and request written acceptance of this action from your office.

The report contains eight recommendations and $2,513 in questioned costs. The following is the
Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.

1. 	   We recommend that OJP remedy the $2,513 in unallowable equipment costs
       charged to grant number 2007-DJ-BX-0670.

       We agree with the recommendation. We will coordinate with the City to remedy the
       $2,513 in questioned costs related to unallowable equipment costs that were charged to
       grant number 2007-DJ-BX-0670.



                                              31

2. 	   We recommend that OJP ensure that the City implements procedures to carefully
       screen any planned acquisitions to ensure it purchases only those items it needs to
       implement the grant project.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that planned acquisitions are carefully screened, and
       grant-related purchases are limited to those items needed to achieve the grant objectives.

3. 	   We recommend that OJP ensure the City maintains a system of property records
       that includes all accountable property items bought with DOJ funds, and that the
       records indicate the source of the funds used to purchase the items.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that the City maintains a system of property records
       that includes all accountable property items bought with U.S. Department of Justice
       (DOJ) funds, and that the records indicate the source of the funds used to purchase the
       items.

4. 	   We recommend that OJP ensure that the City’s grant progress reports include
       detail on the progress of each grant, including a comparison of measureable goals to
       accomplishments and the reasons for slippage if goals are not being met.

       We agree with the recommendation. We will coordinate with the City to obtain a copy
       of procedures implemented to ensure that progress reports include a detailed explanation
       on the progress of each Federal grant, including a comparison of measureable goals to
       accomplishments, and the reasons goals are not met, if applicable.

5. 	   We recommend that OJP ensure that the City implements a process for indentifying
       measurable goals for each grant and a process for collecting and analyzing data to
       track performance through the completion of the grants.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented to ensure that: measurable goals for each grant are identified;
       and a process for collecting and analyzing data is created to track performance through
       the completion of the grants.

6. 	   We recommend that OJP ensure that the City implements a process for monitoring
       sub-recipients to ensure that they meet the programmatic requirements of the
       grants.

       We agree with the recommendation. We will coordinate with the City to obtain a copy of
       procedures implemented for monitoring sub-recipients to ensure that they meet the
       programmatic requirements of the grants.

7. 	   We recommend that OJP ensure that the City implements procedures to monitor
       the remaining balance of unexpired grants and, if necessary and permitted by OJP,

                                              32

        seek additional time to draw down and spend the remaining funds.

        We agree with the recommendation. We will coordinate with the City to obtain a copy of
        procedures implemented to ensure that: the remaining balance of unexpired Federal
        grants is properly monitored; and, if necessary and permitted by the awarding agency, an
        extension is requested to draw down and spend any remaining funds.

8. 	    We recommend that OJP ensure that the City implements an approved plan to
        spend the $174,927 awarded under grant number 2008-DJ-BX-0397.

        We agree with the recommendation. We will coordinate with the City to obtain
        documentation to support its plan to spend the $174,927 awarded under grant number
        2008-DJ-BX-0397, which is set to expire on September 30, 2011.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Eileen Garry 

        Deputy Director 

        Bureau of Justice Assistance 


        Amanda LoCicero           

        Audit Liaison 

        Bureau of Justice Assistance 


        Cynthia Simons 

        Program Manager 

        Bureau of Justice Assistance 


        Richard Theis

        Assistant Director

        Audit Liaison Group 

        Justice Management Division 


        OJP Executive Secretariat 

        Control Number 20110502 





                                              33

                                                               APPENDIX V

             ANALYSIS AND SUMMARY OF ACTIONS

              NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft report of this audit to the City of Birmingham
and OJP. The city’s comments are incorporated in Appendix III and OJP’s
comments are incorporated in Appendix IV. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Analysis of the City of Birmingham’s Response to the Draft Report

        In its response to the draft report, the city stated that it accepts the
audit recommendations but disagreed that it did not monitor and had no
procedures for monitoring sub-recipients to ensure they met the
programmatic requirements of the grants. During the audit, the Police
Department grant manager told us the city did not monitor and had no
procedures for monitoring the programmatic requirements of the grants.
Other police department officials also told us they were not aware they
needed to monitor sub-recipients’ compliance with programmatic
requirements. Despite this, the city’s response to the draft report included a
list of the procedures the city said it will use to monitor sub-recipients.
These procedures were not provided to us during our audit work although
we asked repeatedly about sub-recipient monitoring procedures. Having
now reviewed these procedures, we believe they are sufficient to address
the finding regarding sub-recipient monitoring and, consequently, the
recommendation the city disagreed with is closed. The city’s response to the
draft report includes the status of other corrective actions planned or taken
on recommendations in the report. Our analysis of the city’s response is
described below in Summary of Actions Necessary to Close the Report.

Analysis of OJP’s Response to the Draft Report

       In its response to the draft audit report, OJP stated that it agreed with
all eight recommendations. OJP said it would coordinate with the city to
obtain documentation to remedy questioned costs and copies of policies and
procedures showing the city had implemented our management
recommendations. Our analysis of OJP’s response is discussed below.




                                       34

Summary of Actions Necessary to Close the Report

1. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP remedy the $2,513 in
   unallowable equipment costs charged to grant number 2007-DJ-BX-0670.
   The city’s response noted that the 10 computer monitors were sent to the
   city’s training room and the police department uses the room and the
   computers to train officers on a variety of applications. City officials did
   not tell us this during the audit. During the audit, a city official told us
   that the city had an immediate need for the monitors and that he had
   prepared the paperwork loaning the monitors to the city. Because the
   city’s response did not include documentation for use of the equipment by
   law enforcement and other city personnel, we are unable to determine
   whether the monitors were used for the grant-funded purpose.

   In its response, OJP said that it agrees with the recommendation and will
   coordinate with the city to remedy the questioned costs.

   This recommendation can be closed when: (1) the questioned costs have
   been remedied, or (2) when we review documentation showing the
   computers were used primarily for law enforcement purposes.

2. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city
   implements procedures to screen carefully any planned acquisitions to
   ensure it purchases only those items it needs to implement the grant
   project. The city said that the police department grant manager will work
   closely with senior police department officials and project managers on all
   items needed to implement grant-funded projects.

   In its response, OJP said that it agrees with the recommendation and will
   coordinate with the city to obtain a copy of the procedures implemented
   to ensure that planned acquisitions are carefully screened and grant-
   related purchases are limited to those items needed to achieve the grant
   objectives.

   This recommendation can be closed when we review procedures that
   ensure the city carefully screens planned acquisitions to ensure it
   purchases only those items needed to implement the grant project.

3. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city
   maintains a system of property records that includes all accountable


                                      35

  property items bought with DOJ funds and that those records indicate the
  source of the funds used to purchase the items. The city provided a list
  of safeguards it implemented to ensure property records include the
  funding source for items bought with DOJ funds. While these safeguards
  appear appropriate, we are uncertain how they apply specifically to the
  accountable property records we reviewed. As noted in the report,
  neither the city’s nor the police department’s system of property records
  included information about the source of the funds used to acquire the
  property. In addition, neither set of records could provide a complete list
  of grant-funded property. The city’s response did not specify how its new
  safeguards apply to each system of records. As a result, these
  documents do not support the city’s contention in its response that it has
  more than met this recommendation.

  In its response, OJP said that it agrees with the recommendation and will
  coordinate with the city to obtain a copy of procedures to ensure that the
  city maintains a system of property records that includes all accountable
  property items bought with DOJ funds, and that the records indicate the
  source of the funds used to purchase the items.

  This recommendation can be closed when we review documentation how
  the newly implemented safeguards apply to the two sets of property
  records we reviewed.

4. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city’s grant
   progress reports include detail on the progress of each grant, including a
   comparison of measurable goals to accomplishments and the reasons for
   slippage if goals are not being met. The city said that its grant project
   managers will be responsible for collecting, analyzing, and tracking data
   that adequately measures the performance of each grant program as well
   as maintaining complete documentation of program activities throughout
   the life of the grant program.

  In its response, OJP said that it agrees with the recommendation and will
  coordinate with the city to obtain a copy of procedures implemented to
  ensure that progress reports include a detailed explanation on the
  progress of each grant, including a comparison of measurable goals to
  accomplishments, and the reasons goals are not met, if applicable.

  This recommendation can be closed when we review procedures that
  ensure the city’s grant progress reports include details on the progress of



                                     36

   each grant, including a comparison of measureable goals to
   accomplishments and the reasons for slippage if goals are not being met.

5. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city
   implements a process for identifying measurable goals for each grant and
   a process for collecting and analyzing data to track performance through
   the completion of the grants. The city said the grants manager will work
   closely with senior police department officials and project managers to
   develop specific goals that can adequately measure the required
   accomplishments of each grant program. The project managers will be
   responsible for collecting, analyzing, and tracking data to measure grant
   performance as well as maintaining documentation on program activities
   throughout the life of the grant program.

   In its response, OJP said that it agrees with the recommendation and will
   coordinate with the city to obtain a copy of procedures implemented to
   ensure that measureable goals for each grant are identified and a process
   for collecting and analyzing data is created to track performance through
   the completion of the grants.

   This recommendation can be closed when we review procedures that
   ensure the city has implemented a process for identifying measurable
   goals for each grant and a process for collecting and analyzing data to
   track performance through the completion of the grants.

6. Closed. This recommendation is closed based on our review of
   documentation showing the city implemented a process for monitoring
   sub-recipients to ensure they meet the programmatic requirements of the
   grants.

7. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city
   implements procedures to monitor the remaining balance of unexpired
   grants and, if necessary and permitted by OJP, seek additional time to
   draw down and spend the remaining funds. The city said that the grant
   manager and senior accountant will continue to monitor all grant balances
   to ensure that all grant funds are expended prior to the expiration of the
   program. The city also said that the $56,376 in grant funds not drawn
   down before the grant expired was for grant projects that were to be
   implemented by the Jefferson County Sheriff’s Office (a co-applicant and
   sub-recipient). The city said that it had notified the sub-recipient, but the



                                      37

  sub-recipient failed to implement the grant project before the funds 

  expired. 


  In its response, OJP said that it agrees with the recommendation and will
  coordinate with the city to obtain a copy of procedures implemented to
  ensure that the remaining balance of unexpired federal grants is properly
  monitored and, if necessary and permitted by the awarding agency, an
  extension is requested to draw down and spend any remaining funds.

  This recommendation can be closed when we review the city’s procedures
  for monitoring unexpired grants and, if necessary and permitted by OJP,
  seeking additional time to draw down and spend the remaining funds.

8. Resolved. In its response to the draft report, the City of Birmingham
   said that it accepts our recommendation that OJP ensure the city
   implements an approved plan to spend the $174,927 awarded under
   Grant Number 2008-DJ-BX-0397. The city said that it has a plan for
   implementing its $96,000 share of the grant and was confident that it
   would complete the project in a timely fashion. However, the city’s
   response did not address the remaining $78,927 awarded to Jefferson
   County.

  In its response, OJP said that it agrees with the recommendation and will
  coordinate with the city to obtain documentation to support its plan to
  spend the $174,927 awarded under Grant Number 2008-DJ-BX-0397,
  which expires on September 30, 2011.

  This recommendation can be closed when we review an OJP-approved
  plan for spending the $174,927 that includes project goals, objectives,
  and milestones.




                                    38

